APPENDIX A

United States v. McGinnis
United States Court of Appeals for the Fifth Circuit
April 21, 2020, Filed
No. 19-10197
Reporter
956 F.3d 747 *; 2020 U.S. App. LEXIS 12731 **

UNITED STATES OF AMERICA, Plaintiff - Appellee v.
ERIC GERARD MCGINNIS, Defendant - Appellant

Prior History: [**1] Appeal from the United States District
Court for the Northern District of Texas.

Counsel: For United States of America, Plaintiff - Appellee:
Andrew Laing, U.S. Department of Justice, Criminal
Division, Washington, DC; Leigha Amy Simonton, Assistant
U.S. Attorney, U.S. Attorney's Office, Northern District of
Texas, Dallas, TX.
For Eric Gerard Mcginnis, Defendant - Appellant: Brandon
Elliott Beck, Federal Public Defender's Office, Northern
District of Texas, Lubbock, TX; Juan Gabriel Rodriguez,
Federal Public Defender's Office, Northern District of Texas,
Dallas, TX.

Case Summary
Judges: Before HIGGINBOTHAM, JONES, and DUNCAN,
Circuit Judges.

Overview
HOLDINGS: [1]-If the commonly understood definitions of
terms in the protective order included acts involving "physical
force," the protective order was sufficient to support a
conviction under 18 U.S.C.S. § 922(g)(8)(C)(ii); [2]Defendant's protective order prohibited him from committing
family violence against the victim or engaging in conduct
likely to abuse her, and the commonly understood definitions
of these terms included acts involving physical force; [3]Thus, the jury plausibly found that the order satisfied (C)(ii),
and so the appellate court declined to reverse defendant's
conviction on this basis; [4]-By imposing a more burdensome
requirement than the special condition recited at sentencing,
his written judgment created a conflict with the court's oral
pronouncement, and it had to be returned to the district court
and reformed to conform to the oral sentence.

Outcome
Judgment affirmed in part and remanded in part.

Opinion by: STUART KYLE DUNCAN

Opinion
[*751] STUART KYLE DUNCAN, Circuit Judge:
We again confront a Second Amendment challenge to a
federal law prohibiting individuals subject to certain domestic
violence protective orders from possessing firearms or
ammunition for any purpose. 18 U.S.C. § 922(g)(8).
Appellant Eric McGinnis, convicted by a jury of violating §
922(g)(8), claims the statute is a facially unconstitutional
restriction on his right to keep and bear arms. This court
rejected a virtually identical challenge two decades ago in
Judge Garwood's landmark decision in United States v.
Emerson, 270 F.3d 203 (5th Cir. 2001). Much has changed in
Second Amendment jurisprudence since then, and so we
consider whether § 922(g)(8) still [**2] passes muster under
our contemporary framework. It does.

Brandon Beck

Page 2 of 9
956 F.3d 747, *751; 2020 U.S. App. LEXIS 12731, **2
Separately, McGinnis argues his conviction should be vacated
because his protective order does not track the requirements
of § 922(g)(8). He also asserts the district court abused its
discretion by imposing a written special condition of
supervised release not orally pronounced at sentencing. We
affirm the conviction but remand for the limited purpose of
conforming McGinnis's written judgment to the district court's
oral pronouncement.
I.
On the evening of July 28, 2017, Grand Prairie Police
Department (GPPD) officers were dispatched to a wooded
area upon report of a potentially suicidal subject. While
searching for the subject, they heard three gunshots nearby.
Hurrying toward the source of the shots, the officers spotted a
dark SUV parked near the tree line. As they prepared to
approach the vehicle, a man later identified as McGinnis
emerged from the woods.
McGinnis's presence ended up being unrelated to the suicide
call. When questioned, however, McGinnis stated he had a
gun in his backpack. McGinnis ignored commands to walk
backward toward the officers, instead walking forward while
claiming to be a CIA agent and asking the officers if [**3] it
was illegal to shoot a gun in Texas. The officers placed
McGinnis under arrest and searched his backpack, where they
found a short-barrel AR-15 rifle with a collapsible stock and
3D-printed lower receiver, along with five thirty-round
magazines. The backpack also held several envelopes
containing documents entitled "9/11/2001 list of American
Terrorist" (sic). The list included the names and addresses of
several prominent politicians.
Upon running McGinnis's driver's license through law
enforcement databases, the officers learned he was the subject
of an active domestic protective order. The order had been
issued by a Dallas County court on August 31, 2015,
following a hearing at which Sherry Thrash, McGinnis's
former girlfriend, testified that McGinnis had physically
assaulted her on two occasions, injuring her wrists, ribs, and
face. McGinnis was present and participated in the hearing.
At its conclusion, the judge issued a protective order that
prohibited McGinnis from, among other things, "[c]ommitting
family violence against" Thrash or "[e]ngaging in conduct . . .
reasonably [*752] likely to harass, annoy, alarm, abuse,
torment, or embarrass" Thrash or a member of her family or
household. [**4] The order included a finding "that family
violence has occurred and that family violence is likely to
occur in the foreseeable future." It also prohibited McGinnis
from possessing a firearm and separately warned him that
doing so would violate 18 U.S.C. § 922(g)(8). The protective
order was to stay in effect for two years, meaning that it
remained active at the time of McGinnis's 2017 arrest.

Further investigation revealed McGinnis had attempted to
purchase a lower receiver from a retailer in June 2016. He
answered "no" to the background check question that asked
whether he was subject to any "court order restraining [him]
from harassing, stalking, or threatening . . . an intimate
partner." The Bureau of Alcohol, Tobacco, Firearms and
Explosives agent who reviewed the form caught the lie and
contacted McGinnis by phone in July 2016 to inform him that
he could not legally purchase the receiver. The agent also sent
McGinnis a letter via certified mail explaining that McGinnis
could not lawfully own a firearm or ammunition because of
the active protective order. At some point after this incident,
McGinnis created his own receiver using a 3D printer.
Following McGinnis's 2017 encounter with the GPPD, he
was [**5] charged in state court with illegally discharging a
firearm within city limits and violating a protective order.
Shortly thereafter, a federal grand jury indicted him on two
additional charges. The first count charged McGinnis with
illegally possessing an unregistered short-barrel rifle.1 The
second count—and the only one at issue in this appeal—was
for possession of ammunition by a prohibited person in
violation of 18 U.S.C. § 922(g)(8). McGinnis pleaded not
guilty and proceeded to trial, where a jury convicted him on
both counts. The district court denied McGinnis's post-verdict
Rule 29 motion for a judgment of acquittal, rejecting the
constitutional and sufficiency challenges he raises again here.
The court then sentenced McGinnis to 96 months
imprisonment.2 This appeal followed.
II.
McGinnis advances three arguments on appeal. First, he
maintains that § 922(g)(8) is unconstitutional on its face.
Second, he claims the protective order to which he was
subject cannot support a conviction under § 922(g)(8) because
the order's language fails to satisfy the statute's requirements.
Third, he argues the special condition of supervised released
barring him from "places frequented by Ms. Sherry Thrash"
conflicts with the district court's [**6] oral pronouncement at
sentencing. We consider each argument in turn.
A.
We begin with McGinnis's argument that § 922(g)(8) is a
facially unconstitutional restriction on his Second Amendment

1 See

26 U.S.C. §§ 5841 & 5861(d).

2 McGinnis's

sentence is well above his Guidelines range of 33 to 41
months. The district court varied upward out of regard for the
"extremely serious" nature of his crimes, the multiple prior warnings
he had received about his prohibited-person status, and the "danger
[he posed] to the community."

Brandon Beck

Page 3 of 9
956 F.3d 747, *752; 2020 U.S. App. LEXIS 12731, **6
right to keep and bear arms. "We review de novo the
constitutionality of federal statutes." United States v. PortilloMunoz, 643 F.3d 437, 439 (5th Cir. 2011). To sustain a facial
challenge, "the challenger must establish that no set of
circumstances exists under which the [statute] would be
valid." United States v. Salerno, 481 U.S. 739, 745, 107 S. Ct.
2095, 95 L. Ed. 2d 697 (1987). "Facial challenges to the
constitutionality of statutes should be [*753] granted
sparingly and only as a last resort." Serafine v. Branaman,
810 F.3d 354, 365 (5th Cir. 2016) (quoting Hersh v. United
States ex rel. Mukasey, 553 F.3d 743, 762 (5th Cir. 2008)).
Applying our contemporary framework for evaluating federal
firearms regulations, we reaffirm our holding from Emerson
that § 922(g)(8) is not facially unconstitutional.
1.
The Second Amendment provides: "A well regulated Militia,
being necessary to the security of a free State, the right of the
people to keep and bear Arms, shall not be infringed." U.S.
CONST. amend. II. Our court explored the text, structure, and
history of the Second Amendment nearly twenty years ago,
becoming the first court of appeals to recognize that "the
Second Amendment protects the right of individuals to
privately keep and bear their own firearms that are suitable as
individual, personal weapons . . . regardless of whether the
particular individual [**7] is then actually a member of a
militia." Emerson, 270 F.3d at 264 (emphasis added). Even
so, we recognized that the Second Amendment's protection for
individual rights "does not mean that those rights may never
be made subject to any limited, narrowly tailored specific
exceptions or restrictions for particular cases that are
reasonable and not inconsistent with the right of Americans
generally to individually keep and bear their private arms as
historically understood in this country." Id. at 261. Indeed, in
Emerson we upheld the exact provision at issue here—18
U.S.C. § 922(g)(8)—as just such a restriction. Id. at 264.

individual Second Amendment right is subject to important
limitations including, for instance, "longstanding prohibitions
on the possession of firearms by felons and the mentally ill."
Id. at 626.
Heller "did not set forth an analytical framework with which
to evaluate firearms regulations in future cases." Nat'l Rifle
Ass'n of Am., Inc. v. Bureau of Alcohol, Tobacco, Firearms &
Explosives [NRA], 700 F.3d 185, 194 (5th Cir. 2012). Instead,
the Supreme Court stated only that the ordinance at issue
would fail "[u]nder any of the standards of scrutiny that we
have applied to enumerated constitutional rights." Heller, 554
U.S. at 628. Post-Heller, we—like our sister circuits—have
"adopted a two-step inquiry for analyzing laws that might
impact the Second Amendment." Hollis v. Lynch, 827 F.3d
436, 446 (5th Cir. 2016).3 [*754] First, we ask "whether the
conduct at issue falls within the scope of the Second
Amendment right." NRA, 700 F.3d at 194. To make that
determination, "we look to whether the law harmonizes with
the historical traditions associated with the Second
Amendment guarantee." Id. If the burdened conduct falls
outside the scope of the Second Amendment, then the law is
constitutional and the inquiry is over. Otherwise, we proceed
to step two, where we must determine and "apply the
appropriate level of means-ends scrutiny"—either strict [**9]
or intermediate. Id. at 195. "[T]he appropriate level of
scrutiny 'depends on the nature of the conduct being regulated
and the degree to which the challenged law burdens the
[individual Second Amendment] right.'" Id. (quoting United
States v. Chester, 628 F.3d 673, 682 (4th Cir. 2010)). Under
this framework, a "regulation that threatens a right at the core
of the Second Amendment"—i.e., the right to possess a
firearm for self-defense in the home—"triggers strict
scrutiny," while "a regulation that does not encroach on the

3 McGinnis

Several years later, the Supreme Court similarly concluded
that the Second Amendment codified a pre-existing
"individual right to possess and carry weapons in case of
confrontation." District of Columbia v. Heller, 554 U.S. 570,
592, 128 S. Ct. 2783, 171 L. Ed. 2d 637 (2008) (emphasis
added) (striking down a D.C. ordinance banning handgun
possession in the home). After conducting exhaustive textual
and historical analyses much like those Judge Garwood
undertook in Emerson, the majority held the Second
Amendment guarantees "the right of law-abiding, responsible
citizens to use arms in defense of hearth and home." Id. at
635. The Court repeatedly noted that the protection afforded
by the individual right is at its zenith in the home, "where the
need for defense of self, family, and [**8] property is most
acute." Id. at 628. However, Heller also cautioned that the

urges us to jettison this two-step inquiry in favor of the
"historical-traditional analysis described by then-Judge Kavanaugh
in his impressive dissent in Heller II." See Heller v. Dist. Of
Columbia [Heller II], 670 F.3d 1244, 1271, 399 U.S. App. D.C. 314
(D.C. Cir. 2011) (Kavanaugh, J., dissenting) ("In my view, Heller
and McDonald leave little doubt that courts are to assess gun bans
and regulations based on text, history, and tradition, not by a
balancing test such as strict or intermediate scrutiny."). Seven
members of our court recently expressed support for an approach of
that nature. See Mance v. Sessions, 896 F.3d 390, 394-95 (5th Cir.
2018) (Elrod, J., dissenting from denial of en banc rehearing). In
NRA, however, a panel of our court adopted the two-step inquiry and
we are therefore not at liberty to apply a different standard. See
Mercado v. Lynch, 823 F.3d 276, 279 (5th Cir. 2016) (per curiam)
("Under our rule of orderliness, one panel of our court may not
overturn another panel's decision, absent an intervening change in
the law, such as by a statutory amendment, or the Supreme Court, or
our en banc court." (cleaned up)).

Brandon Beck

Page 4 of 9
956 F.3d 747, *754; 2020 U.S. App. LEXIS 12731, **9
core of the Second Amendment" is evaluated under
intermediate scrutiny. Id. Strict scrutiny "requires that the
challenged statute be narrowly drawn to provide the least
restrictive means of furthering a compelling state interest."
Dart v. Brown, 717 F.2d 1491, 1498 (5th Cir. 1983).
Intermediate scrutiny requires the lesser showing of "a
reasonable fit between the challenged regulation and an
important government objective." NRA, 700 F.3d at 195
(cleaned up).
2.
The statute at issue in this appeal, 18 U.S.C. § 922(g)(8),
prohibits individuals subject to certain domestic protective
orders from "possess[ing] in or affecting commerce, any
firearm or ammunition." To convict a defendant under §
922(g)(8), the Government must establish that the protective
order:
(A) was issued after a hearing of which such person
received actual [**10] notice, and at which such person
had an opportunity to participate;
(B) restrains such person from harassing, stalking, or
threatening an intimate partner of such person or child of
such intimate partner or person, or engaging in other
conduct that would place an intimate partner in
reasonable fear of bodily injury to the partner or child;
and
(C)(i) includes a finding that such person represents a
credible threat to the physical safety of such intimate
partner or child; or
(ii) by its terms explicitly prohibits the use, attempted
use, or threatened use of physical force against such
intimate partner or child that would reasonably be
expected to cause bodily injury.
18 U.S.C. § 922(g)(8)(A)-(C).
At the first step of the NRA inquiry, McGinnis argues that §
922(g)(8) burdens the Second Amendment right by
"criminaliz[ing] the possession of any firearm or
ammunition," including the possession of weapons in the
home for self-defense. As to the second step, McGinnis urges
us to [*755] apply strict rather than intermediate scrutiny
because "a blanket disarmament, for any length of time, goes
to the core of the Second Amendment." Moreover, he
maintains that even under intermediate scrutiny the statute
must fail because it is "not reasonably adapted to reducing
domestic
gun [**11]
abuse."
McGinnis
candidly
acknowledges the absence of case law support for his
position, but urges this court to "blaze its own trail" in hopes
we will "be the court vindicated by the Supreme Court."
As an initial matter, we must consider whether McGinnis's

claim is foreclosed by circuit precedent. As discussed above,
the 2001 decision in which our court articulated an individualrights theory of the Second Amendment, Emerson, involved
facial and as-applied challenges to the precise law at issue
here: § 922(g)(8). See Emerson, 270 F.3d at 210, 212. Like
McGinnis, Timothy Emerson was found in possession of a
firearm while subject to a domestic protective order issued by
a Texas state court, although in Dr. Emerson's case the
protective order lacked any express finding he posed a future
danger to his intimate partner. Id. at 211. After setting forth
our subsequently-vindicated individual-rights interpretation,
we nevertheless held that "section 922(g)(8), as applied to
Emerson, does not infringe his individual rights under the
Second Amendment." Id. at 260. Although we were
"concerned with the lack of express findings in the order, and
with the absence of any requirement for the same in clause
(C)(ii) of section 922(g)(8)," we nevertheless rejected
Emerson's constitutional challenge. Id. at 261. We reasoned
that because [**12] protective orders like the one at issue
could be set aside by the issuing court or subject to review by
an appellate court, "the nexus between firearm possession by
the party so enjoined and the threat of lawless violence, is
sufficient, though likely barely so, to support the deprivation,
while the order remains in effect, of the enjoined party's
Second Amendment right to keep and bear arms." Id. at 264.
McGinnis contends we are not bound by Emerson because the
Supreme Court's subsequent Heller decision "effectively hit
the reset button for all Second Amendment jurisprudence." We
are not so sure. McGinnis does not identify, nor are we aware
of, any holding or principle in Heller that casts doubt on
Emerson. To the contrary, Justice Breyer's dissent in Heller
cited Emerson as the lone example of a circuit court holding
the Second Amendment protects the right to possess firearms
for private, civilian purposes. Heller, 554 U.S. at 638 n.2
(2008) (Breyer, J., dissenting). Indeed, in United States v.
Anderson, 559 F.3d 348 (5th Cir. 2009), we explicitly held
that a constitutional challenge to § 922(g)(1)—the federal
statute barring convicted felons from possessing firearms—
was foreclosed by our pre-Heller but post-Emerson precedent,
which Heller "provide[d] no basis for reconsidering." Id. at
352.
McGinnis nevertheless maintains that Emerson is not
controlling [**13] because it did not apply the two-step
analytical framework we later adopted in NRA, and provided
no discussion of the appropriate level of means-end scrutiny.
It is true that the Emerson court did not expressly implement a
two-part inquiry à la NRA, yet it was guided by the same
concerns. Emerson first considered the scope of the Second
Amendment right "as historically understood," and then
determined—presumably by applying some form of meansend scrutiny sub silentio—that § 922(g)(8) is "narrowly

Brandon Beck

Page 5 of 9
956 F.3d 747, *755; 2020 U.S. App. LEXIS 12731, **13
tailored" to the goal of minimizing "the threat of lawless
violence." Emerson, 270 F.3d at 261, 264. It is difficult to see
how the result in Emerson would be different under the laterdeveloped NRA approach.
[*756] Be that as it may, in an abundance of caution we
proceed to re-analyze the constitutionality of § 922(g)(8)
under the two-step NRA framework.
3. a.
a.
At step one, we examine "whether the conduct at issue falls
within the scope of the Second Amendment right." NRA, 700
F.3d at 194. We have explained that "a longstanding,
presumptively lawful regulatory measure—whether or not it
is specified on Heller's illustrative list—would likely fall
outside the ambit of the Second Amendment; that is, such a
measure would likely be upheld at step one of our
framework." Id. at 196.
In this facial challenge, the conduct at issue is [**14] the
keeping and possessing of firearms by individuals subject to
domestic protective orders as defined in § 922(g)(8).
McGinnis argues that this conduct, insofar as it includes
keeping and possessing firearms at home for self-defense
purposes, falls within the scope of the Second Amendment.
The Government responds that restricting this conduct
harmonizes with historical "limitations on firearms possession
by individuals based on the risk they pose to others" and
therefore falls outside the Second Amendment's ambit.
We need not and do not resolve this issue. Even assuming
arguendo that the conduct burdened by § 922(g)(8) falls
within the Second Amendment right, McGinnis's facial
challenge fails. Cf. United States v. Mahin, 668 F.3d 119, 124
(4th Cir. 2012) (assuming arguendo that § 922(g)(8)
implicates Second Amendment); see also Mance v. Sessions,
896 F.3d 699, 704 (5th Cir. 2018) (assuming arguendo that
statutes prohibiting interstate gun sales are not longstanding
or presumptively lawful measures under NRA step one).
b.

challenged law burdens the right." Id. at 195. "A law that
burdens the core of [**15] the Second Amendment guarantee
. . . would trigger strict scrutiny, while a less severe law
would be proportionately easier to justify." Id. at 205 (cleaned
up).
Extending his step-one argument, McGinnis maintains that §
922(g)(8) strikes the core of the Second Amendment because
it completely disarms individuals subject to qualifying
protective orders while offering no exception for homedefense or self-defense. McGinnis therefore urges us to apply
strict scrutiny. The Government argues that the Second
Amendment, at its core, only protects gun possession by
peaceable, responsible citizens, and "any person who falls
within § 922(g)(8)'s scope cannot be considered 'peaceable' or
'responsible.'" The Government further points out that §
922(g)(8), like the statute in NRA prohibiting 18-to-20-yearolds from buying firearms, disarms only a discrete category,
not the entire community. See NRA, 700 F.3d at 205.
Consequently, the Government says intermediate scrutiny
applies. While this is a close question—and while choosing
the appropriate level of scrutiny involves some degree of
arbitrariness—we agree with the Government.
According to the Supreme Court, "whatever else [the Second
Amendment] leaves to future evaluation, it surely elevates
above all other interests the right of law-abiding, [*757]
responsible citizens to use [**16] arms in defense of hearth
and home." Heller, 554 U.S. at 635; cf. NRA, 700 F.3d at 206
("The Second Amendment, at its core, protects law-abiding,
responsible citizens" (cleaned up)). While § 922(g)(8) is
broad in that it prohibits possession of all firearms, even those
kept in the home for self-defense, it is nevertheless narrow in
that it applies only to a discrete class of individuals for limited
periods of time. Critically, the discrete class affected by §
922(g)(8) is comprised of individuals who, after an actual
hearing with prior notice and an opportunity to participate,
have been found by a state court to pose a "real threat or
danger of injury to the protected party." Emerson, 270 F.3d at
262.4 Put differently, individuals subject to such judicial

4 McGinnis

Proceeding to step two, we must "determine whether to apply
intermediate or strict scrutiny to the law, and then . . .
determine whether the law survives the proper level of
scrutiny." NRA, 700 F.3d at 194.
i.
"[T]he appropriate level of scrutiny depends on the nature of
the conduct being regulated and the degree to which the

asserts that § 922(g)(8), by its terms, "allow[s] for a
criminal conviction against a citizen who is altogether law-abiding
and responsible so long as the court order prohibits and restrains
certain criminal conduct." Essentially, he takes issue with the fact
that § 922(g)(8)'s text does not require a finding that a respondent
pose a credible threat. See § 922(g)(8)(C)(ii). This argument,
however, is foreclosed by Emerson, which recognized that Congress
enacted § 922(g)(8) "on the assumption" that state laws authorizing
protective orders require "evidence credited by the court reflect[ing]
a real threat or danger of injury to the protected party by the party
enjoined." 270 F.3d at 262; cf. Mahin, 668 F.3d at 126 ("[W]hether
a finding that the person represents a credible threat is explicit in the

Brandon Beck

Page 6 of 9
956 F.3d 747, *757; 2020 U.S. App. LEXIS 12731, **16
findings are not the "responsible citizens" protected by the
core of the Second Amendment. United States v. Chapman,
666 F.3d 220, 226 (4th Cir. 2012); cf. United States v. Reese,
627 F.3d 792, 802 (10th Cir. 2010) (stating § 922(g)(8)
"prohibit[s] the possession of firearms by [a] narrow class[] of
persons who, based on their past behavior, are more likely to
engage in domestic violence"). Additionally, the restrictions
imposed by § 922(g)(8) apply only for the duration of the
protective order.
In sum, intermediate scrutiny applies because § 922(g)(8) is
sufficiently bounded both as to "the nature of the conduct
being regulated" (it regulates gun possession by persons
judicially determined [**17] to pose a real threat or danger)
and "the degree to which [it] burdens the [Second
Amendment] right" (it prohibits possession only after an
adversarial hearing and only for the duration of the resulting
protective order). NRA, 700 F.3d at 195.
Our analysis in NRA supports applying intermediate scrutiny
here. In NRA, we considered a challenge to statutory
provisions "prohibit[ing] federally licensed firearms dealers
from selling handguns to persons under the age of 21." 700
F.3d at 188; see 18 U.S.C. §§ 922(b)(1) & (c)(1). We
determined intermediate scrutiny was "[u]nquestionably"
appropriate because the laws did "not disarm an entire
community, but instead prohibit[ed] commercial handgun
sales to 18-to-20-year-olds—a discrete category." Id. at 205.
We credited Congress's finding that 18-to-20-year-olds "tend
to be relatively irresponsible and can be prone to violent
crime, especially when they have easy access to handguns."
Id. at 206 (quoting Pub. L. No. 90-351, § 901(a)(6), 82 Stat.
197, 226 (1968)). While we were "inclined to uphold the
challenged federal laws at step one of our analytical
framework," id. at 204, we went on to explain that even if the
laws burdened the core of the Second Amendment right, the
burden was not severe because (1) the laws only affected
handgun sales, not use; (2) 18-to-20-year-olds could still
purchase long-guns or "acquire handguns [**18] from
responsible parents or guardians;" and (3) the restrictions
were only temporary, ending when a person turns 21. Id. at
206-07. [*758] Similarly, § 922(g)(8) restricts gun
possession for a discrete class and for a limited time. To be
sure, § 922(g)(8) works a total ban on gun possession for
persons subject to qualifying protective orders, but it does so
"against the background of the almost universal rule of
American law that for a temporary injunction to issue . . . [a]
presently existing actual threat must be shown." Emerson,
270 F.3d at 262 (cleaned up). In other words, whereas 18-to20-year-olds only "tend to be relatively irresponsible," NRA,
order's language or not, it is a necessary step in the court's decision
to issue the injunctive order.").

700 F.3d at 206, individuals subject to the protective orders
described in § 922(g)(8) have been adjudged a "real threat."
Emerson, 270 F.3d at 262. The net result is that neither
restriction severely burdens Second Amendment rights and so,
under the controlling analysis our circuit has adopted, both
call for intermediate scrutiny.5
ii.
Having determined intermediate scrutiny applies, we consider
whenever § 922(g)(8), on its face, survives. We ask "whether
there is a reasonable fit between the law and an important
government objective." NRA, 700 F.3d at 207. Stated
differently, the Government must demonstrate that the statute
is "reasonably adapted to an important government interest."
Id. The [**19] parties agree that reducing domestic gun
abuse is not just an important government interest, but a
compelling one. They only dispute whether § 922(g)(8) is
reasonably adapted to that interest. We hold that it is.
As the Fourth Circuit stated, "§ 922(g)(8) rests on an
established link between domestic abuse, recidivism, and gun
violence and applies to persons already individually adjudged
in prior protective orders to pose a future threat of abuse."
Mahin, 668 F.3d at 128. The statute's procedural
requirements, as discussed above, ensure that any predicate
protective order was issued only after an adversarial hearing
where the respondent was entitled to present his own account
of the alleged abuse. Moreover, § 922(g)(8)'s prohibition is
temporary, applying only for the duration of the domestic
protective order (in McGinnis's case, two years).6 These
features assure us that § 922(g)(8) is "reasonably adapted" to
the goal of reducing domestic gun abuse, whether or not it is
the least restrictive means for doing so.
This conclusion is supported, if not dictated, by our holding in
Emerson. There we found a sufficient "nexus" between "the
threat of lawless violence" and § 922(g)(8)'s prohibition on
gun possession for persons subject to domestic protective

5 We

note that each of our sister courts to have reached step two of
the post-Heller framework has applied intermediate scrutiny to §
922(g)(8). See Reese, 627 F.3d at 802; Chapman, 666 F.3d at 226;
Mahin, 668 F.3d at 124.
6 Congress'

tailoring is further revealed by comparing the
prohibitions imposed by § 922(g)(8) with those imposed by §
922(g)(9). The former, at issue here, prohibits gun possession only
while a court-issued domestic protective order is in effect. The latter,
which applies to individuals "convicted in any court of a
misdemeanor crime of domestic violence," imposes a lifetime ban on
gun possession (or until the conviction is expunged). See United
States v. Skoien, 614 F.3d 638, 644-45 (7th Cir. 2010).

Brandon Beck

Page 7 of 9
956 F.3d 747, *758; 2020 U.S. App. LEXIS 12731, **19
orders—even [**20] orders lacking express judicial findings
of future danger. Emerson, 270 F.3d at 264. That is, we
concluded § 922(g)(8) was one of the "limited, narrowly
tailored specific exceptions or restrictions for particular cases
that are reasonable and not inconsistent with the right of
Americans generally to individual keep and bear their private
arms as historically understood in this country." Id. at 261. At
a
minimum,
Emerson
applied
heightened—i.e.,
intermediate—scrutiny, and some have suggested [*759] it
applied strict scrutiny. See, e.g., United States v. Elkins, 780
F. Supp. 2d 473, 478 (W.D. Va. 2011) (describing Emerson as
applying "strict scrutiny"). Regardless, we see no reason to
depart from Emerson's means-end analysis in this case.
In sum, we hold § 922(g)(8) passes constitutional muster
under our two-step NRA framework and therefore reject
McGinnis's facial challenge. We note, however, that our
holding today does not foreclose the possibility of a
successful as-applied challenge to § 922(g)(8). See, e.g., City
of El Cenizo v. Texas, 890 F.3d 164, 191 (5th Cir. 2018)
(post-enforcement "as-applied challenges . . . are the basic
building blocks of constitutional adjudication" (cleaned up)).
B.
Next, we consider McGinnis's claim that his conviction must
be reversed because the language of the underlying domestic
protective order fails to satisfy the conditions of §
922(g)(8)(C)(i) or (C)(ii). Since McGinnis [**21] raised this
sufficiency-of-the-evidence claim in a Rule 29 motion at trial,
our review is de novo yet "highly deferential to the verdict."
United States v. Bowen, 818 F.3d 179, 186 (5th Cir. 2016)
(quoting United States v. Beacham, 774 F.3d 267, 272 (5th
Cir. 2014)). We must affirm as long as "a reasonable jury
could conclude that the evidence presented, viewed in the
light most favorable to the government, established the
defendant's guilt beyond a reasonable doubt." United States v.
Buluc, 930 F.3d 383, 387 (5th Cir. 2019) (quoting United
States v. Duncan, 164 F.3d 239, 242 (5th Cir. 1999)).
As noted above, § 922(g)(8) contains three elements, the third
of which may be satisfied in the alternative. Subsections (C)(i)
and (C)(ii) require that the underlying protective order either:
(i) includes a finding that such person represents a
credible threat to the physical safety of such intimate
partner or child; or
(ii) by its terms explicitly prohibits the use, attempted
use, or threatened use of physical force against such
intimate partner or child that would reasonably be
expected to cause bodily injury.
The protective order in this case included a finding "that
family violence has occurred and that family violence is likely
to occur in the foreseeable future." The order also prohibited

McGinnis from (1) "committing family violence against"
Sherry Thrash; (2) "communicating directly with [Thrash] in
a threatening or harassing manner"; (3) "[c]ommunicating
a [**22] threat through any person to" Thrash; or (4)
"[e]ngaging in conduct directed specifically toward" Thrash
"that is reasonably likely to harass, annoy, alarm, abuse,
torment, or embarrass" her.
McGinnis contends there was insufficient evidence to support
his conviction because his protective order meets neither of
the requirements in § 922(g)(8)(C). He argues the order is
inadequate under (C)(i) because it does not incorporate a
finding that McGinnis "represents a credible threat" to
Thrash's "physical safety." He relies on the fact that Texas's
statutory definition of "family violence" includes assault, an
offense that does not necessarily involve the threat of physical
harm. See TEX. FAM. CODE § 71.004; TEX. PENAL CODE
§ 22.01(a). Essentially, McGinnis's position is that if a state's
definition of family violence includes any conduct that does
not "represent[] a credible threat to . . . physical safety," then
a state court's generalized finding of family violence cannot
support a federal conviction under § 922(g)(8)(C)(i).
As to § 922(g)(8)(C)(ii), McGinnis argues that the language in
his protective order is not "substantially similar" to the
statutory language as mandated by (C)(ii)'s requirement
[*760] that the order "by its terms explicitly prohibit[] the
use, attempted use, or threatened [**23] use of physical force
. . ." (emphasis added). McGinnis invokes the surplusage
canon of statutory interpretation to argue that Congress would
not have included the phrase "by its terms explicitly" if
Congress did not wish to impose a literal requirement that any
qualifying protective order clearly and without implication
prohibit the use, attempted use, or threatened use of physical
force. He also cites the legislative history of § 922(g)(8),
arguing the language of (C)(ii) was intended to satisfy "more
conservative" House members by keeping the statute narrow.
We find McGinnis's arguments unavailing, and hold that, at
the very least, the protective order at issue satisfies the
requirements of subsection (C)(ii). As McGinnis himself
observes, other courts of appeals have squarely held that
similar or even broader language suffices under (C)(ii). For
example, the Fourth Circuit has held that a protective order
requiring its subject to "refrain from abusing" his wife
"unambiguously satisfies subsection (C)(ii)'s requirement that
the court order prohibit the use, attempted use, or threatened
use of physical force." United States v. Bostic, 168 F.3d 718,
722 (4th Cir. 1999). Similarly, the First Circuit held that a
protective order prohibiting its subject from "abusing,
harassing, or threatening [**24] his wife or children" was
sufficient under (C)(ii) even though it "d[id] not use the same
verbiage as the statute." United States v. Coccia, 446 F.3d

Brandon Beck

Page 8 of 9
956 F.3d 747, *760; 2020 U.S. App. LEXIS 12731, **24
233, 235, 241 (1st Cir. 2006). The court took a common-sense
approach, recognizing that "the commonly understood
definition of 'abuse' includes violent acts involving physical
force within the [statutory] definition." Id. at 242. The
Eleventh Circuit reached the same conclusion as to a
protective order enjoining its subject from "intimidating,
threatening, hurting, harassing, or in any way putting the
plaintiff, . . . her daughters and/or her attorney in fear of their
lives, health, or safety." United States v. DuBose, 598 F.3d
726, 731 (11th Cir. 2010) (per curiam). The court reasoned
that because "the definition of 'hurt' as a verb includes 'to
inflict with physical pain,' . . . the order's language restraining
[the subject] from 'hurting' his wife . . . satisfies subsection
(C)(ii)'s requirement." Id. (cleaned up). The court added that
"[a] narrower interpretation would defeat what we conceive to
be the obvious and general purpose of the statute." Id.
Consistent with these cases, we hold that if the commonly
understood definitions of terms in the protective order include
acts involving "physical force," the protective order is
sufficient to support a conviction under § 922(g)(8)(C)(ii).
Here, McGinnis's [**25] protective order prohibited him
from "[c]omitting family violence" against Thrash or
engaging in conduct likely to "abuse" her. The commonly
understood definitions of these terms include acts involving
physical force. Thus, the jury plausibly found that the order
satisfied (C)(ii), and so we decline to reverse McGinnis's
conviction on this basis.7
C.
Finally, we address McGinnis's contention that the district
court erred by including a condition of supervised release in
its written judgement—namely, restraining McGinnis from
visiting "places frequented by Ms. Sherry Thrash"—that the
court did not pronounce orally at sentencing. Our standard of
review for oral-pronouncement claims varies depending on
whether the defendant had opportunity to object. If he had no
such opportunity, we review for abuse of discretion. United
[*761] States v. Mudd, 685 F.3d 473, 480 (5th Cir. 2012). If
the defendant had opportunity but failed to object, we review
for plain error. United States v. Huor, 852 F.3d 392, 398 (5th
Cir. 2017).
The district court's obligation to orally pronounce its sentence
is grounded in the defendant's right to be present at
sentencing, which in turn is derived from the Sixth
Amendment and the Due Process Clause. See United States v.
Morin, 832 F.3d 513, 519 (5th Cir. 2016); United States v.

7 Because

we hold that McGinnis's underlying protective order
satisfies § 922(g)(8)(C)(ii), we need not and do not reach the
question whether it also satisfies (C)(i).

Bigelow, 462 F.3d 378, 381 (5th Cir. 2006). "[W]hen there is
a conflict between a written sentence and an oral
pronouncement, the oral pronouncement controls." [**26]
United States v. Martinez, 250 F.3d 941, 942 (5th Cir. 2001).
In such cases, the written judgment must be returned to the
district court and "reformed to conform to the oral sentence."
Huor, 852 F.3d at 404. If the difference between the orally
pronounced sentence and the written judgment "is only an
ambiguity," however, "we look to the sentencing court's intent
to determine the sentence." Bigelow, 462 F.3d at 381.
At sentencing, the district court orally granted the
Government's request to impose a special condition barring
McGinnis from having "any direct or indirect contact with
Ms. Thrash during [his] term of supervised release."
McGinnis did not object to this condition. However, the
language appearing on McGinnis's written judgment provides
not only that McGinnis may not contact Thrash but also that
he "shall not enter onto the premises, travel passed [sic], or
loiter near Ms. Sherry Thrash's residence, place of
employment, or other places frequented by Ms. Sherry
Thrash."
McGinnis argues that the condition in his written judgment
prohibiting him from entering or traveling past "other places
frequented by Ms. Sherry Thrash" directly conflicts with the
district court's oral pronouncement. Further, because he
"could not have objected to the [later-added language] at
sentencing," McGinnis [**27] submits that the conflict
should be reviewed for abuse of discretion rather than plain
error. The Government concedes this issue, offering no
objection "to a remand for the limited purpose of allowing the
district court to delete that short phrase from the rest of the
condition."
Because McGinnis received no notice of the extra terms
included in his written judgment, we review for abuse of
discretion. Mudd, 685 F.3d at 480. McGinnis is correct that
by imposing "a more burdensome requirement" than the
special condition recited at sentencing, his written judgment
creates a conflict with the court's oral pronouncement, not
merely an ambiguity. Bigelow, 462 F.3d at 383. Thus, as the
Government acknowledges, McGinnis's judgment must be
returned to the district court and "reformed to conform to the
oral sentence." Huor, 852 F.3d at 404.
***
For the foregoing reasons, we AFFIRM McGinnis's
conviction but REMAND for the limited purpose of amending
McGinnis's written judgment to conform to the district court's
oral pronouncement at sentencing.
Concur by: STUART KYLE DUNCAN

Brandon Beck

Page 9 of 9
956 F.3d 747, *761; 2020 U.S. App. LEXIS 12731, **27
United States v. Virginia, 518 U.S. 515, 568, 116 S. Ct. 2264,
135 L. Ed. 2d 735 (1996) (Scalia, J., dissenting). I would
support en banc review in this case or any appropriate future
case to reassess our Second Amendment analysis.

Concur

End of Document

STUART KYLE DUNCAN, Circuit Judge, joined by EDITH
H. JONES, Circuit Judge, concurring:
While our opinion today dutifully applies our court's two-step
framework for post-Heller Second Amendment challenges, I
write separately [**28] to reiterate the view that we should
retire this framework in favor of an approach focused on the
Second Amendment's text and history.1 Not only [*762]
would this approach provide firmer ground for evaluating
restrictions on the right to bear arms, but it would also further
cabin judicial application of the "tiers-of-scrutiny approach to
constitutional adjudication," an exercise which "is
increasingly a meaningless formalism." Whole Woman's
Health v. Hellerstedt, 136 S. Ct. 2292, 2326-27, 195 L. Ed. 2d
665 (2016) (Thomas, J., dissenting).2 "[W]hatever abstract
tests [courts] may choose to devise, they cannot supersede . . .
those constant and unbroken national traditions that embody
the people's understanding" of constitutional guarantees.

1 See

Mance v. Sessions, 896 F.3d 390, 394-95 (5th Cir. 2018) (en
banc) (mem.) (Elrod, J., dissenting from denial of en banc rehearing,
joined by Jones, Smith, Willett, Ho, Duncan, and Engelhardt, JJ.)
("Simply put, unless the Supreme Court instructs us otherwise, we
should apply a test rooted in the Second Amendment's text and
history—as required under Heller and McDonald—rather than a
balancing test like strict or intermediate scrutiny."); see also Nat'l
Rifle Ass'n, Inc. v. Bureau of Alcohol, Tobacco, Firearms, &
Explosives, 714 F.3d 334, 338 (5th Cir. 2013) (Jones, J., dissenting)
("[W]e should presuppose"—based [**29] on Heller's analogy to
First Amendment rights—"that the fundamental right to keep and
bear arms is not itself subject to interest balancing."); Heller v. Dist.
Of Columbia [Heller II], 670 F.3d 1244, 1271, 399 U.S. App. D.C.
314 (D.C. Cir. 2011) (Kavanaugh, J., dissenting) ("In my view,
Heller and McDonald leave little doubt that courts are to assess gun
bans and regulations based on text, history, and tradition, not by a
balancing test such as strict or intermediate scrutiny.").
2 United

States v. Virginia, 518 U.S. 515, 567, 116 S. Ct. 2264, 135
L. Ed. 2d 735 (1996) (Scalia, J., dissenting) ("These [tiers of
scrutiny] are no more scientific than their names suggest, and a
further element of randomness is added by the fact that it is largely
up to us which test will be applied in each case."); see also Eugene
Volokh, Implementing the Right to Keep and Bear Arms for SelfDefense: An Analytical Framework and a Research Agenda, 56
UCLA L. REV. 1443, 1464-70 (2009) (arguing the intermediate/strict
scrutiny distinction is less helpful in Second Amendment cases than
might appear).

Brandon Beck

APPENDIX B

Case 3:17-cr-00499-M Document 75 Filed 02/13/19

Page 1 of 7 PageID 448

19-10197.265

Case 3:17-cr-00499-M Document 75 Filed 02/13/19

Page 2 of 7 PageID 449

19-10197.266

Case 3:17-cr-00499-M Document 75 Filed 02/13/19

Page 3 of 7 PageID 450

19-10197.267

Case 3:17-cr-00499-M Document 75 Filed 02/13/19

Page 4 of 7 PageID 451

19-10197.268

Case 3:17-cr-00499-M Document 75 Filed 02/13/19

Page 5 of 7 PageID 452

19-10197.269

Case 3:17-cr-00499-M Document 75 Filed 02/13/19

Page 6 of 7 PageID 453

19-10197.270

Case 3:17-cr-00499-M Document 75 Filed 02/13/19

Page 7 of 7 PageID 454

19-10197.271

